Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





NURSING FACILITY PERFORMANCE
IN ASSESSING RESIDENTS TIMELY
   AND SUBMITTING REQUIRED
  MINIMUM DATA SET RECORDS




                     Inspector General

                       April 2005
                     OEI-06-02-00730
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs/its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆    E X E C U T I V E                             S U M M A R Y




                      OBJECTIVE
                      To determine the extent to which Medicare/Medicaid-certified nursing
                      facilities meet Federal requirements to (1) assess residents according to
                      the required time schedule; (2) submit records to the Minimum Data Set
                      (MDS) Repository within the prescribed timeframe; and (3) submit
                      records for all residents in Medicare/Medicaid-certified beds, as
                      required.


                      BACKGROUND
                      Medicare/Medicaid-certified nursing facilities are required to assess the
                      clinical and functional status of residents and submit assessment
                      records to States for inclusion in the national MDS Repository
                      maintained by the Centers for Medicare & Medicaid Services (CMS).
                      MDS data are used by nursing facilities for resident care planning and
                      by Federal and State governments for nursing facility payment
                      determinations and long term care quality assurance purposes.
                      Because of the importance of these uses, it is vital that facilities meet
                      Federal MDS requirements and that the MDS database contains
                      current information about its intended resident population.

                      Federal law requires facilities to assess residents according to a set
                      periodic schedule and submit MDS records within 1 month of
                      completion. Facilities must submit records of all residents in certified
                      beds for inclusion in the national MDS Repository. However, facilities
                      must properly code records of residents in beds that are not certified by
                      the Medicare/Medicaid programs to ensure that these records are not
                      included in the national MDS Repository.

                      To determine the extent to which facilities assess residents on time and
                      submit resulting MDS records within the prescribed timeframe, we
                      examined data from the national MDS Repository for a representative
                      sample of 250 certified nursing facilities. Our study covered the period
                      of April 2002 to June 2003. To determine the extent to which facilities
                      correctly submit resident records, we compared MDS data to a list of
                      residents present at the time of each sample facility’s latest standard
                      survey performed during our study period.




    OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   i
E X E C U T I V E              S U         M M A R Y 





                       FINDINGS
                       Facilities performed 95 percent of resident assessments on time.
                       Among the various types of required assessments, facilities performed
                       both admission and quarterly assessments according to the schedule
                       95 percent of the time and annual assessments 91 percent of the time.
                       Among the 5 percent of the required admission and quarterly
                       assessments that were late, half were dated within 7 days after the
                       scheduled completion date.
                       Facilities submitted 94 percent of resident records to their State
                       MDS databases within the prescribed 31-day timeframe. In fact,
                       facilities submitted 70 percent of MDS records within 14 days—2 weeks
                       earlier than the 31-day required timeframe for submitting records.
                       Among the 6 percent of records submitted late, half were submitted
                       within 18 days after the required submission date.
                       Facilities submitted records for 99.9 percent of residents in
                       Medicare/Medicaid-certified beds, as required. This high level of
                       performance demonstrates that facilities have virtually no problems in
                       meeting requirements for submitting MDS records of required residents
                       to State databases for inclusion in the national MDS Repository.
                       However, coding errors by facilities resulted in records for an
                       estimated 1,812 residents in noncertified beds being
                       inappropriately included in the national MDS Repository. Facilities
                       in certain States (about 9 percent of facilities overall) operate with some
                       beds that are not Medicare/Medicaid-certified. Records of residents in
                       these beds should not be included in the national MDS Repository.
                       However, we found records for an estimated 1,812 residents in such
                       beds in the Repository. Staff from these facilities in our sample
                       reported some confusion over requirements for identifying and coding
                       records for these residents.


                       RECOMMENDATION
                       Overall, our analysis verifies a high degree of facility performance
                       resulting in a national MDS Repository that is current and
                       representative of its intended resident population. However, we
                       recommend that CMS take additional action to ensure that facilities
                       correctly code records of residents in noncertified beds so that no such
                       records are included in the national MDS Repository.


     OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   ii
E X E C U T I V E                     S U           M M A R Y



                   Agency Comments
                   In response to our recommendation, CMS indicated specific actions it
                   plans to take to ensure that records for residents in noncertified units
                   are not transmitted and stored in the MDS Repository.




 OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   iii
∆   T A B L E         O F             C O N T E N T S



           E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



           I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




           F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                       Facilities assess residents on time . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 


                       Facilities submit records within the prescribed timeframe . . . . . . 5 


                       Facilities submit records of required residents . . . . . . . . . . . . . . . . . 6 


                       Facilities miscode some resident records . . . . . . . . . . . . . . . . . . . . . . 6 





           R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



           E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9




           A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                       A:	 Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                       B: 	Descriptive Statistics, Estimates, Projections, 


                             and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                       C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

∆   I N T R O D U C T I O N


                      OBJECTIVE
                      To determine the extent to which Medicare/Medicaid-certified nursing
                      facilities meet Federal requirements to (1) assess residents according to
                      the required time schedule; (2) submit records to the Minimum Data Set
                      (MDS) Repository within the prescribed timeframe; and (3) submit
                      records for all residents in Medicare/Medicaid-certified beds, as required.


                      BACKGROUND
                      The Medicare and Medicaid programs certify nursing facilities to provide
                      skilled nursing and long term care for program beneficiaries. Federal law
                      requires Medicare/Medicaid-certified nursing facilities (hereafter referred
                      to as facilities) to conduct comprehensive assessments of each resident’s
                      functional capacity using a prescribed Resident Assessment
                      Instrument.1,2 A subset of this Resident Assessment Instrument, the
                      MDS is “a core set of screening, clinical, and functional status elements
                       . . . that forms the foundation of the comprehensive assessment.”3 Upon
                      completion of each assessment, facilities are required to enter the results
                      into a computer program and electronically submit records to the
                      appropriate State MDS database. In turn, the Centers for Medicare &
                      Medicaid Services (CMS) routinely retrieve MDS records from each State
                      database to compile a large computerized database, known as the national
                      MDS Repository.

                      The MDS data are used by facilities for resident care planning and by
                      State and Federal programs for facility payment calculations and long
                      term care oversight. Facilities use data from the assessments to develop
                      individualized resident care plans “to meet the residents’ . . . needs that
                      are identified in the comprehensive assessment”4 and to “track a
                      resident’s status between comprehensive assessments.”5 The Medicare
                      Part A prospective payment system uses MDS assessment data to
                      determine an appropriate payment for skilled nursing facilities.6 Many
                      State Medicaid programs also use MDS data in setting nursing facility
                      payment rates. CMS uses MDS data to calculate a series of quality
                      measures, including the 10 Quality Indicator (QI) scores reported on the
                      Nursing Home Compare Web site.7
                      This inspection is part of our ongoing study of programs and systems
                      affecting Medicare and Medicaid beneficiaries in certified nursing
                      facilities. Because of the importance of the various uses of MDS data, it is
                      imperative that the MDS database contains current information about its
                      intended resident population. To that end, facilities must comply with

    OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   1
I N T R O D 
U C T                I O N

                   requirements to assess residents on time, submit records timely, and 

                   submit records for required residents.

                   Requirements for MDS.
                   Schedule for assessing residents Section 1819 of the Social Security Act,
                   added by the Omnibus Budget Reconciliation Act of 1987 (OBRA 1987),
                   specifies a schedule for assessing residents and provides a specific time by
                   which a nurse must sign the record indicating that the assessment has
                   been completed.8 The schedule begins with a comprehensive assessment
                   of each newly admitted resident by day 14 of his or her stay (see Table 1).

                                                                               Table 1

                                                    OBRA 1987 Schedule for Assessing Residents

                     Assessment Type                           Deadline

                     Admission                                 By day 14 after admission to facility

                     Quarterly                                 Within 92 days of the previous assessment

                     Annual                                    Within 365 days of the previous comprehensive assessment

                     Significant Change                        Within 14 days of the date of a significant change in clinical condition
                   Source: 42 CFR § 483.20(b-c), CMS Resident Assessment Instrument Version 2.0 Manual.

                   As a resident’s stay progresses, a facility must conduct quarterly and
                   annual assessments. Facilities must also conduct a comprehensive
                   assessment whenever residents experience a significant change in their
                   clinical condition. Residents whose facility stay is covered under
                   Medicare Part A must be assessed more frequently and CMS uses
                   assessment data to calculate facility payments under Medicare’s
                   prospective payment system.9
                   Timeframe for submitting records Facilities must electronically submit
                   records to their State MDS database within 31 days after a particular
                   event, such as the completion date of a resident assessment or date of
                   discharge from, or reentry to, a facility.10,11
                   Submitting records of residents Facilities must submit records to State MDS
                   databases for all residents who are in certified beds. As mentioned above,
                   these data are compiled by CMS in the national MDS Repository.
                   Because most facilities are exclusively composed of certified beds, MDS
                   records for all their residents should be included in the national MDS
                   Repository. However, a relatively small number of certified facilities in
                   certain States also include beds that are not certified by the
                   Medicare/Medicaid programs (referred to as noncertified beds). To meet
                   MDS requirements, facilities must properly code records of residents in
                   these noncertified beds so that no such records are included in the

 OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS                     2
I N T R O D 
U C T                I O N

                   national MDS Repository. In practice, CMS requires facilities to indicate,
                   in a specific database field, the authority (Federal, State, or neither)
                   under which the record is submitted.12 CMS only retrieves those records
                   with Federal authority for inclusion in the national MDS Repository.
                   CMS Oversight of MDS Data.
                   As part of its oversight of long term care, CMS has a number of
                   management controls to facilitate proper and prompt submission of
                   resident assessment data. The electronic MDS system used by facilities
                   to enter assessment data uses automated warning messages to alert
                   facility staff to questionable or inconsistent data as they submit records to
                   State MDS databases. Further, facility and Federal and State program
                   managers can generate reports that list or summarize these messages to
                   identify problems or target training needs. Additionally, State survey
                   agencies have authority to issue deficiency citations for noncompliance if
                   surveyors find evidence of problems with late, incomplete, or inaccurate
                   assessments during a facility inspection.13 Finally, in September 2001,
                   CMS awarded a contract for the Data Assessment and Verification project
                   to assess the accuracy and completeness of MDS data.


                   METHODOLOGY
                   To meet the objectives of this inspection, we examined MDS records for a
                   randomly selected sample of 250 Medicare/Medicaid-certified nursing
                   facilities that had a standard survey conducted between April 1, 2002,
                   and June 30, 2003. (See Appendix A for a detailed description of the
                   inspection methodology.)

                   To determine the extent to which facilities assess residents on time, we
                   examined sample facility MDS records for three types of assessments
                   (admission, quarterly, and annual) to determine whether each resident
                   was assessed according to the OBRA 1987 schedule. To determine the
                   extent to which facilities submit MDS records within the prescribed
                   timeframe, we determined whether each record was submitted within 31
                   days, as required. We also identified whether sample facilities had been
                   cited for a deficiency related to these timeliness requirements by State
                   survey agencies during the study period. To determine the extent to
                   which facilities submitted records for all residents in Medicare/Medicaid-
                   certified beds, we compared MDS records to lists of these residents
                   present in the facility at the time of the last standard survey during the
                   study period. This comparison also allowed us to determine whether
                   facilities had incorrectly coded records of residents in beds not



 OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   3
I N T R O D        U C T           I O N

                    Medicare/Medicaid certified, thereby resulting in their inclusion in the
                    national MDS Repository.
                    Standards
                    We conducted this inspection in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-06-02-00730    FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   4
∆
   F I N D I N G S


                       Facilities performed 95 percent of                                          Among the various types of
                          resident assessments on time                                             required assessments,
                                                                                                   facilities performed both
                                                                                                   admission and quarterly
                                                              Table 2                              assessments according to the
                                                                                                   required schedule 95 percent
                                Proportion of Resident Assessments
                                                                                                   of the time and 91 percent of
                                         Performed on Time
                                                                                                   the time for annual
                             Assessments                        Percent             n              assessments. (See Table 2.)
                             All                                  95         122,559
                                                                                                   Among the 5 percent of the
                                                                                                   required admission and
                                 Admission                        95          33,872
                                                                                                   quarterly assessments that
                                 Quarterly                        95          72,542               were late, half were dated
                                 Annual                           91          16,145               within 7 days after the
                                                                                                   scheduled completion date.
                          Source: OIG analysis of MDS assessment records.

                                                                       At the facility level, 7 percent
                        of facilities (19) performed more than 20 percent of their assessments late
                        and accounted for 29 percent of all late assessments. Among these 19
                        facilities in our sample, only 3 were cited by State surveyors for
                        deficiencies related to the timeliness of resident assessments during the
                        study period.



           Facilities submitted 94 percent of resident              In fact, facilities submitted 70
         records to their State MDS databases within                percent of MDS records within
                                                                    14 days—2 weeks earlier than
                      the prescribed 31-day timeframe
                                                                    the 31-day required timeframe
                                                                    for submitting records. Among
                        the 6 percent of records submitted late, half were submitted within 18
                        days after the required submission date.

                        At the facility level, 10 percent of facilities (22) submitted more than 20
                        percent of their MDS records late and accounted for 52 percent of all late
                        submissions. Among these 22 facilities, only 1 had received a deficiency
                        related to timely submission of resident records during the study period.
                        Further, 3 of these 22 facilities were also among the 19 sample facilities
                        that performed more than 20 percent of their assessments late. None of
                        these three sample facilities were cited by State surveyors for deficiencies
                        related to meeting MDS timeliness requirements during the study period.



     OEI-06-02-00730    FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS           5
F   I N D I N G          S    


       Facilities submitted records for 99.9 percent                      For 89 percent of facilities, we
                                                                          found records in the national
        of residents in Medicare/Medicaid-certified
                                                                          MDS Repository for every
                                  beds, as required
                                                                          resident occupying a certified
                                                                          bed at the time of the last
                             standard survey during the study period. While the other 11 percent of
                             facilities omitted records for at least 1 resident occupying a certified bed,
                             only 1 facility out of 244 sample facilities omitted records for 3 or more
                             required residents.14 Projecting the small error rate to the population of
                             residents in certified beds, records for an estimated 2,195 residents were
                             erroneously omitted from the national MDS Repository, which contains
                             records for about 1.5 million residents. This high level of performance
                             demonstrates that facilities have virtually no problems meeting
                             requirements for submitting MDS records of required residents.

              Coding errors by facilities resulted in                  Only an estimated 9 percent of
                                                                       Medicare/Medicaid-certified
         records for an estimated 1,812 residents in
                                                                       nursing facilities nationwide
            noncertified beds being inappropriately
                                                                       were operating any noncertified
           included in the national MDS Repository                     beds during the study period.15
                                                                       However, 40 percent of these
                             facilities miscoded the submission authority for records of at least one
                             resident in a noncertified bed, thereby causing those records to be
                             included in the national database.

                             The primary cause of such records being included in the national MDS
                             Repository was facility confusion over requirements regarding records of
                             residents in noncertified beds. Representatives of these facilities reported
                             an incorrect belief that their facility should submit records for all
                             residents under Federal authority regardless of bed classification or
                             reported that staff were unaware of the certification status of a resident’s
                             bed.16




       OEI-06-02-00730       FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   6
∆
   R E C O M M E N D A T I O N


                       Overall, our analysis verifies a high degree of facility performance
                       resulting in a national MDS Repository that is current and representative
                       of its intended resident population, with few exceptions. Nearly all
                       facilities performed well in assessing residents on time, submitting
                       records timely, and submitting records of residents in certified beds.
                       However, confusion over requirements for identifying and coding records
                       of residents in noncertified beds resulted in the inclusion of such records
                       in the national MDS Repository.
                       We recommend that CMS ensure that nursing facilities correctly
                       code records of residents in noncertified beds so that no such
                       records are included in the national MDS Repository.
                       CMS could target education to facilities that include noncertified beds.
                       We recognize that CMS has previously taken steps to instruct facilities
                       regarding designation of the authority (Federal, State, or neither) under
                       which a facility is submitting an MDS record. However, interviews with
                       facility staff suggest that some confusion remains.

                       CMS could also enhance the MDS software it makes available to facilities
                       to simplify the coding of record submission authority. CMS previously
                       suggested such an enhancement to MDS third-party software vendors. In
                       its 2001 Draft Provider Instructions Regarding Authority to Submit MDS
                       Records and Use of the Sub_Req Field,17 CMS suggested that vendors
                       include a room and bed registry feature which would identify the
                       certification status of resident locations and automatically code their MDS
                       records with the appropriate submission authority. CMS should consider
                       whether it would be practical and beneficial to include this enhancement
                       in its MDS software.

                       ___________

                       OIG will separately furnish CMS with information regarding our sample
                       records of residents whose assessment information was miscoded, so that
                       CMS may remove these data from the national MDS Repository. For
                       possible followup, we will also identify and provide CMS with a list of
                       sample facilities that performed poorly in assessing residents on time and
                       submitting records timely, yet had not been cited with deficiencies by
                       State survey agencies.




     OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   7
R   E C O        M E N    D A T             I O N



                      Agency Comments
                      In response to our recommendation, CMS indicated specific actions it
                      plans to take to ensure that records for residents in noncertified units are
                      not transmitted and stored in the MDS Repository. These actions include
                      informing State survey agencies and MDS coordinators of the need for
                      providers to properly code MDS records to accurately reflect resident
                      categories and conducting analysis to explore improving the next version
                      of its MDS freeware to assist providers in making these determinations.
                      The full text of CMS’s comments is presented in Appendix C.




    OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   8
∆   E N D N O T E S




                      1   Social Security Act, Sections 1819(b)(3) and 1919(b)(3).

                      2   42 CFR § 483.20.

                      3   The Centers for Medicare & Medicaid Services, Resident Assessment
                          Instrument Version 2.0 Manual, pp. 1-1, 1-4.

                      4   42 CFR § 483.20(k)(1).

                      5   The Centers for Medicare & Medicaid Services, Resident Assessment
                          Instrument Version 2.0 Manual, p. 2-15.

                      6   The Centers for Medicare & Medicaid Services, Resident Assessment
                          Instrument Version 2.0 Manual, p. 2-40. The MDS system assigns a
                          Resource Utilization Group (RUG-III) code to each resident. That code
                          determines the reimbursement rate when included on a Medicare bill.
                          Bills submitted without a RUG-III code may only be eligible for a reduced
                          default rate.

                      7   Additionally, State survey agencies use MDS-based Quality Indicator (QI)
                          reports to prepare for inspections of facilities. MDS data provide facility
                          administrators and government program managers with a valuable
                          source of information about residents and their care needs.

                      8   42 USC § 1395i-3(b)(3)(c). Parallel authority for the Medicaid Program
                          may be found at Section 1919(b)(3) of the Social Security Act
                          (42 USC § 1396r(b)(3)).

                      9   Medicare PPS requires assessments at days 5, 14, 30, 60, and 90, and
                          after any significant change in clinical condition. OBRA 1987
                          assessments may be used to meet Medicare PPS assessment
                          requirements whenever timeframes coincide. For example, an admission
                          assessment could be used as the 14-day Medicare PPS assessment for
                          billing purposes.

                      10   42 CFR § 483.20(b)(3).

                      11   The Centers for Medicare & Medicaid Services, Resident Assessment
                           Instrument Version 2.0 Manual, p. 5-3.




    OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   9
                  12   To make this designation, facilities must indicate one of three options in
                       a field called SUB_REQ for each resident record. Federal authority
                       (value=3) indicates an MDS record for a resident in a
                       Medicare/Medicaid-certified unit. CMS is authorized to collect MDS
                       information for these residents. State authority (value=2) indicates an
                       MDS record for a resident in a unit that is neither Medicare nor
                       Medicaid certified, but from a State that requires record submission
                       nevertheless. No authority (value=1) indicates an MDS record for a
                       resident in a unit that is neither Medicare nor Medicaid certified, and
                       neither the State nor Federal governments have authority to collect
                       MDS information for residents in this unit.

                  13   The specific deficiencies include F-272, performing assessments; F-273,
                       timely admission assessments; F-274, timely assessments for significant
                       change in status; F-275, timely annual assessments; F-276, timely
                       quarterly assessments; and F-287, timely submissions.

                  14   We were unable to contact representatives of this facility due to an
                       ownership change and pending legal issues.

                  15   This estimate results from a projection that 1,410 of the 16,236 facilities
                       were operating noncertified beds during the study period, based upon
                       our sample, as verified by documentation obtained during data
                       collection.

                  16   We attempted to contact representatives for the nine sample facilities
                       identified as having incorrectly coded records for three or more residents
                       in noncertified beds and spoke to six of them. After multiple attempts,
                       we were unable to speak with the appropriate individuals from the
                       remaining three facilities.

                  17   The Centers for Medicare & Medicaid Services, Long-Term Care
                       Resident Assessment Instrument Version 2.0, Draft Provider
                       Instructions Regarding Authority to Submit MDS Records and Use of
                       the Sub_Req Field, Revised October 2001.




OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   10
∆   A P P E N D I X                             ~              A

                      Detailed Methodology

                         The population for this inspection is the 16,236 certified nursing
                         facilities that had a standard survey conducted between April 1, 2002,
                         and June 30, 2003, as identified in the Online Survey and Certification
                         and Reporting (OSCAR) database. Because State survey agencies are
                         required to conduct standard survey inspections every 15 months, this
                         population includes all certified nursing facilities operating during the
                         study period, with the exception of any facilities that were not inspected
                         as required. The report findings are projectable to this population of
                         facilities and, within this population and study period, to their
                         assessments performed under the OBRA 1987 schedule, records
                         submitted to the national MDS database, and residents in certified or
                         noncertified beds. Report findings do not address the extent to which
                         facilities assessed residents according to the schedule for assessments
                         associated with the Medicare Part A prospective payment system,
                         because over half of these records in the MDS database had neither an
                         admission date nor a reentry date—dates required for analysis.
                         Sample
                         We used a stratified sample design to randomly select facilities for
                         review. Using information in OSCAR, we determined whether each
                         facility had any noncertified beds. As mentioned, facilities must code
                         records of residents in noncertified beds differently than those of
                         residents in certified beds. We grouped facilities into two strata:
                         those with only certified beds and those with both certified and
                         noncertified beds. Facilities were identified as including both
                         certified and noncertified beds when OSCAR data indicated that the
                         total facility bed count was greater than the total number of certified
                         beds in the OSCAR database. We randomly selected 150 facilities
                         from the stratum of facilities with only certified beds and 100
                         facilities from the stratum of facilities with certified and noncertified
                         beds. (See Table 3.)




    OEI-06-02-00730      FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   11
A   P   P E N D       I X ~         A          





                                                                                  Table 3

                                              Sample Design of Certified Nursing Facilities With
                                              Standard Surveys—April 2002 Through June 2003
                                                                                                  Population of
                                                            Stratum                                               Sample
                                                                                                    Facilities
                        Facilities With Only Certified Beds                                          14,523        150
                        Facilities With Certified and Noncertified Beds                               1,713        100
                          Total                                                                      16,236        250
                       Source: OIG analysis of OSCAR data.

                      Note that this design resulted in a sample of 250 facilities with certified
                      beds (all facilities in both strata) and includes 100 facilities with some
                      noncertified beds in addition to their certified beds. Facilities with
                      certified and noncertified beds were oversampled to ensure adequate
                      representation of these facilities for analysis purposes.
                      Data
                      MDS Records We extracted all MDS records for the 250 sample facilities
                      from the national MDS Repository for the 15-month sample period.
                      This process identified 272,549 resident records, which included all
                      assessments along with discharge and reentry records. Among these
                      records, we identified 122,559 scheduled OBRA assessment records
                      (admission, quarterly, and annual). (See Appendix B.)
                      Deficiency Data We obtained information from the OSCAR database
                      concerning any deficiencies cited by State survey agencies during the
                      study period related to sample facility performance in assessing
                      residents and submitting MDS records.
                      Lists of Residents in Certified Beds From State survey agencies, we
                      requested lists of residents in Medicare/Medicaid-certified beds at the
                      time of the last standard survey. State agencies provided complete
                      listings of residents in certified beds for 244 of the 250 sample facilities,
                      for a total of 21,349 residents in certified beds. Most State survey
                      agencies provided Form CMS-802, Sample/Roster Matrix, a standard
                      form used during standard survey inspections. In other cases, we
                      obtained resident lists in other formats, such as surveyor tour notes and
                      facility-produced census printouts or meal lists.
                      Lists of Residents in Noncertified Beds We also requested from State
                      survey agencies lists of residents in beds not Medicare/Medicaid
                      certified at the time of the last standard survey. Based on OSCAR data,
                      we had originally selected 100 facilities identified as having some
    OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS           12
A   P   P E N D       I X ~         A


                      noncertified beds in addition to certified beds. However, State survey
                      agency documentation revealed that only 73 sample facilities were
                      actually operating noncertified beds at the time of the survey. The 73
                      facilities are composed of 71 facilities that were originally identified in
                      OSCAR as having both certified and noncertified beds and 2 facilities
                      that were originally identified in OSCAR as having only certified beds.
                      This difference between OSCAR and State documentation appears to be
                      primarily due to inaccurate/out-of-date facility bed count information in
                      the OSCAR database. State agencies provided complete listings of
                      residents in noncertified beds for 65 of the 73 facilities, for a total of
                      1,268 residents in noncertified beds.

                      Because we did not receive lists of residents in noncertified beds for
                      more than 10 percent of these facilities, we conducted an analysis to
                      determine whether the nonresponse introduced bias into our statistical
                      estimates. The nonresponse analysis compared the facility
                      characteristics of the 65 facilities for which we did receive a list of
                      residents in noncertified beds with the facility characteristics of the
                      8 facilities for which we did not receive a list of residents. We found no
                      statistical differences between the two groups based upon bed count,
                      provider category, type of ownership, or profit status, suggesting that no
                      bias was introduced.
                      Analysis
                      Assessing Residents To determine the extent to which facilities assess
                      residents according to the schedule set forth by OBRA 1987, we
                      examined MDS records related to admission, quarterly, and annual
                      assessments from each sample facility. While we did not review
                      assessments performed exclusively for Medicare Part A payment
                      purposes, we did review those Medicare-related assessments that
                      coincided with the OBRA 1987 schedule. (See Appendix B.) We checked
                      each assessment record to determine whether the date a nurse indicated
                      the assessment was completed met the schedule requirement. We
                      calculated the proportion of assessments that met the schedule and the
                      proportion of facilities accounting for any late assessments. We also
                      identified facilities that performed a high proportion of resident
                      assessments late and whether those facilities had been cited for any
                      related deficiencies by a State survey agency during the study period.
                      Submitting MDS Records To determine the extent to which facilities
                      submit MDS records within the prescribed timeframe, we examined all
                      records submitted to the national MDS Repository by sample facilities


    OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   13
A   P   P E N D       I X ~   A


                           over the study period. These records included all assessments, whether
                           completed under the OBRA 1987 or Medicare Part A schedules, as well
                           as resident discharge and reentry records. We assessed each record to
                           determine whether it was submitted within 31 days of the relevant
                           event, such as assessment completion date or date of discharge, for the
                           particular type of record. We calculated the proportion of records that
                           were submitted as prescribed and the proportion of facilities accounting
                           for any late submissions. We also identified facilities that had
                           submitted a high proportion of records late and whether those facilities
                           had been cited for any related deficiencies by a State survey agency
                           during the study period.
                           Submitting Records of Residents in Certified Beds To determine the extent
                           to which records of residents in certified beds were reported to the
                           national MDS Repository as required, we compared MDS records to lists
                           of these residents identified during State surveys. This analysis was
                           conducted for 21,349 residents in certified beds of the 244 facilities for
                           which we obtained lists from States. Residents listed as being in
                           certified beds at the time of the survey for whom MDS records were not
                           found were considered missing in error, with the exception of residents
                           with stays of fewer than 14 days. We calculated the proportion of
                           residents in certified beds whose records were included in the national
                           MDS Repository as required, and projected this finding to the entire
                           database.
                           Submitting Records of Residents in Noncertified Beds To determine the
                           extent to which records of residents in noncertified beds were included
                           in the national MDS Repository, we compared MDS records to lists of
                           these residents identified during State surveys. This analysis was
                           conducted for 1,268 residents in noncertified beds from the 65 facilities
                           for which we obtained lists from States. We initially considered as
                           errors records found in the national MDS Repository of residents in
                           noncertified beds at the time of the survey. Following this initial
                           identification of questionable resident records, we made a final
                           determination after further examining MDS records and contacting
                           representatives of facilities by telephone for clarification, as needed. We
                           calculated the proportion of residents in noncertified beds whose records
                           were included in the national MDS Repository and projected this
                           finding to the entire database.




         OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   14
∆
   A P P E N D I X                             ~              B

               Descriptive Statistics, Estimates, Projections,
                        and Confidence Intervals

                          Sample and Analysis Descriptive Statistics:
                                 Assessments and Records
                                                                                                            Number

                 Assessments
                        Total OBRA Scheduled Assessments                                                     122,559
                         OBRA only                                                                            97,835
                         Medicare/OBRA combined                                                               24,724

                           Admission Assessments                                                              33,872
                            OBRA only                                                                         11,550
                            Medicare/OBRA combined                                                            22,322
                           Quarterly Assessments                                                              72,542
                            OBRA only                                                                         70,263
                            Medicare/OBRA combined                                                             2,279
                           Annual Assessments                                                                 16,145
                            OBRA only                                                                         16,022
                            Medicare/OBRA combined                                                               123

                 Submitted Recordsa
                        All Submitted Records                                                                272,549
                          Admission Assessment Records                                                        33,009
                          Quarterly Assessment Records                                                        71,692
                          Annual Assessment Records                                                           15,958
                          Medicare PPS-Only Assessment Records                                                55,786
                          Change in Status Assessment Records                                                 12,509
                          Significant Correction Records                                                         127
                          Discharge Records                                                                   65,333
                          Reentry Records                                                                     18,135

                 Residents
                        Total Residents on Rosters                                                            22,617
                          Residents in Certified Beds                                                         21,349
                          Residents in Noncertified Beds                                                       1,268
                 a
                   Submitted records, for purposes of analysis, include only the original version of
                 records, not corrections.




     OEI-06-02-00730      FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS     15
       A   P   P E N D        I X ~           B




                                          Estimates and Confidence Intervalsb

                                                                                              Lower 95%            Upper 95%
                                                                                              Confidence           Confidence
                                                                             Estimate          Interval             Interval          n
Assessments Performed on Time

All Assessments                                                              94.67%                   93.40%          95.94%    122,559
  Admission Assessments                                                      95.24%                  
93.52%          96.96%     33,872
  Quarterly Assessments                                                      95.28% 
               94.14%            96.42%     72,542
  Annual Assessments                                                         90.86%                 
88.49%           93.23%     16,145

Median Days Late (among assessments
performed late) = 7

Facilities Performing More Than
20% of Assessments Late                                                        6.92%                 3.29%            10.55%          250

Proportion of All Late Assessments
by Facilities Performing More Than
20% of Assessments Late                                                      28.49%                 12.63%            44.35%    122,559

Records Submitted Within 31-Day Timeframe

All Records                                                                  94.07%                 92.15%          95.99%      272,549
  Admission Assessment Records                                               94.41% 
               92.27%          96.55%       33,009
  Quarterly Assessment Records                                               94.33%                 92.06%      
   96.60%       71,692
  Annual Assessment Records                                                  93.03%                 90.33%        
 95.73%       15,958
  Medicare PPS Assessment Recordsc
                                          96.37%                 94.47%          98.27%       55,786
  Change in Status Assessment Records                                        95.13%
                                                                             
                      92.93%          97.33%       12,509
  Discharge Records 
                                                        92.21%                 90.31%          94.11%       65,333
  Reentry Records 
                                                          92.53%                 90.18%          94.88%       18,135

Records Submitted Within 14 Days                                             70.39%                 64.96%            75.82%    272,549
Median Days Late (Among
Records Submitted Late) = 18

Facilities Submitting More Than
20% of Records Late                                                          10.16%                  5.71%            14.61%          250

Proportion of All Late Records by
Facilities Submitting More Than
20% of Records Late                                                          51.93%                 34.45%            69.41%    272,549

b
    Weighted estimates, standard errors, and projections were calculated using Sudaan statistical software.
c
    Medicare assessments used for payment purposes and not combined with OBRA.


           OEI-06-02-00730      FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS         16
A       P   P E N D           I X ~     B          





                                 Estimates and Confidence Intervals (continued)
                                                                                               Lower 95%            Upper 95%
                                                                                               Confidence           Confidence
                                                                            Estimate            Interval             Interval            n

Residents in Certified Beds

    Residents with Records in MDS, as Required                                99.85%                 99.79%            99.91%       21,349
    Residents Records Omitted from MDS
    (Error rate)                                                                0.15%                 0.09%             0.21%

    Facility Performance
        Did Not Omit Records of Residents                                     88.67%                 84.04%            93.30%            244
        Omitted Records of at Least One Resident                              11.33%                  6.70%            15.96%

    Projections
        Residents in Population                                            1,421,160               1,291,389        1,550,930       21,349
        Residents in Population With Records
        Omitted From MDS                                                         2,195                 2,194                2,195

Residents in Noncertified Beds

    Records Not in MDS (Coded Correctly)                                      92.20%                 79.50%           99.58%d        1,268
    Records Inappropriately in MDS (Error rate)                                7.80%                 0.42%d            20.50%

    Facility Performance
    Did Not Miscode Records of Residents                                      60.16%                 42.46%            77.86%            65
    Miscoded Records of at Least One Resident                                 39.84%                 22.14%            57.54%

    Projections
    Residents in Population                                                    23,230                 1,268d            58,123       1,268
    Residents in Population With Records
    Inappropriately in MDS                                                       1,812                 1,799                1,825
    d
     The actual lower confidence interval includes 0 and the actual upper confidence interval includes 100%.
    Thus, the lower and upper limits presented here are based on sample findings.




            OEI-06-02-00730      FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS           17
∆   A P P E N D I X                           ~            C


                                                         Agency Comments




OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   18
A   P   P E N D       I X ~         C          





    OEI-06-02-00730   FA CI LI T Y PE R FO RMA N C E   IN   ASSESSING RESIDENTS   AND   SUBMITTING MDS RECORDS   19
                      This report was prepared under the direction of Judith V. Tyler
                      Regional Inspector General for Evaluation and Inspections in the Dallas
                     Regional Offce; and Kevin Golladay, Assistant Regional Inspector
                     General. Other principal Offce of Evaluation and Inspections staff who
                     contributed include:
                     Blaine Collins Team Leader
                     Scott Whitaker Project Leader
                     Deborah McGurk          Program Analyst

                     Ruth Ann Dorril Program Analyst

                     Tricia Davis Director, Medicare and Medicaid Branch
                     Sandy Khoury,       Program Specialist


                     Technical Assistance
                     Barbara Tedesco        Mathematical Statistician
                     Scott Horning,     Program Analyst

                     Kevin Farber Mathematical Statistician




OEI. 06. 02- 00730   FACILITY PERFORMANCE IN ASSESSING RESIDENTS AND SUBMITTING MDS RECORDS
